             EVALUATION OF THE
           DEPARTMENT OF LABOR’S
     RANDOM DRUG TESTING IMPLEMENTATION
                 FYs 1996-2000




  OFFICE OF THE ASSISTANT SECRETARY
 FOR ADMNISTRATION AND MANAGEMENT

______________________________________________________




                                           Report No. 2E-07-780-0001
                                                                                           Date Issued: October 10, 2000


                                              TABLE OF CONTENTS




ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

EXHIBITS

     Exhibit 1 - Random Testing Sampling Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

     Exhibit 2 - Random Drug Testing Completion Rates for Fiscal Years 1996 - 2000 . . . . . . . . . . . 9
                                 ACRONYMS AND GLOSSARY


                                              ACRONYMS


ADPLs           -    Agency Drug Program Liaisons

DOL             -    United States Department of Labor

DPC             -    Drug Program Coordinator

MSHA            -    Mine Safety and Health Administration

OASAM           -    Office of the Assistant Secretary for Administration and Management

OIG             -    Office of Inspector General

OSHA            -    Occupational Safety and Health Administration

TDPs            -    Testing Designated Positions


                                               GLOSSARY

Agency Drug Program Liaisons - Serve as the primary contacts with the DPC in implementing the DOL
Drug-Free Workplace Plan in their respective agencies. These individuals are located in the National
Office.

Drug Program Coordinator - The individual designated as having primary responsibility for
implementing, directing, administering, and managing the DOL Drug-Free Workplace Plan.

Testing Designated Positions - Those sensitive positions whose incumbents operate independently and
who, if on illegal drugs, would pose such a great potential risk to the public or the agency that it cannot
be minimized by internal controls.




                                                      i
                                     EXECUTIVE SUMMARY

We conducted an evaluation of the Office of the Assistant Secretary for Administration and
Management’s (OASAM) implementation of the U.S. Department of Labor’s (DOL) random drug
testing program. The purpose of the evaluation was to determine whether the Department’s random
drug testing program was implemented as stipulated in DOL’s Drug-Free Workplace Plan (Plan) in
Fiscal Years (FY) 1996 through 2000.


 RESULTS OF EVALUATION

FINDING - DOL’s RANDOM DRUG TESTING PROGRAM
CAN BE IMPROVED

We found that DOL’s random drug testing program can be improved in two areas:
(1) completion rates of scheduled drug tests can be increased and (2) deferred randomly scheduled
drug tests should be completed within 60 days.

We also found that the Department’s random drug testing selection plan ensures that each employee
who was subject to random testing had an equal probability of selection in FYs 1996 - 2000.


 RECOMMENDATIONS

We recommend that:

    1. DOL’s Safety and Health Center update the Department of Labor Drug Testing Handbook
       to include procedures for employee drug testing within 60 days after deferral.

    2. DOL’s Safety and Health Center actively notify agencies of the Plan’s rules regarding random
       testing and enforce the 60-day deferral provision stipulated in DOL’s Drug-Free Workplace
       Plan.

    3. Agency Drug Programs train drug program liaisons and coordinators in the standard operating
       procedures for implementing the Department’s random drug testing program.


 AGENCY COMMENTS and OIG’s RESPONSE

During the exit conference, Safety and Health Center officials told us that they are in agreement with our


                                                    ii
recommendations and provided documentation of corrective actions taken. We consider these
recommendations to be resolved and closed.




                                               iii
                                       BACKGROUND

Legal Authority

On September 15, 1986, President Reagan signed Executive Order 12564, establishing the goal of a
Drug-Free Federal Workplace. The Order made it a condition of employment for all Federal
employees to refrain from using illegal drugs on or off-duty. In a letter to all executive branch employees
dated October 4, 1986, the President reiterated his goal of ensuring a safe and drug-free workplace for
all Federal workers. Section 503 of the Supplemental Appropriations Act of 1987, Pub. L. 100-71,
101 Stat. 391, 468-471, codified at 5 U.S.C. Sec 7301 note (1987), implements the Executive Order.

DOL’s Drug-Free Workplace Plan

DOL has implemented a Drug-Free Workplace Plan1 with the purpose of setting forth objectives,
policies, procedures, and implementation guidelines, to achieve a drug-free Federal workplace,
consistent with Executive Order 12564 and Section 503 of the Supplemental Appropriations Act of
1987. Approximately 3,000 positions in the Department have been identified for random testing to
provide a means of ensuring that the performance of these functions is not impaired by the use of illegal
drugs. These testing designated positions (TDPs) are positions where use of illegal drugs could have the
most serious impact on public health, national security, and the ability of the Department to carry out its
most important functions. The DOL Plan includes random testing of 10 percent of employees in TDPs.
These individuals are tested for: marijuana, cocaine, opiates, amphetamines, and phencyclidine (PCP).

The Plan stipulates that employees in these positions will have an equal statistical chance of being
selected each year for unannounced testing, which could occur on any scheduled workday and without
individualized suspicion that a particular individual is using illegal drugs. At the same time, recognizing
that employees are entitled to be free of unreasonable intrusions on their rights, the Plan contains
important safeguards for the rights of employees, including advance notice of the circumstances under
which testing is permissible and of the scope of testing, privacy during collection, stringent laboratory
standards, provisions for challenging results, and assurance of availability of rehabilitation programs.

Coordination of DOL’s drug-free workplace program, including testing of employees and follow up
actions, is the responsibility of the Workers' Compensation and Substance Control Team in the Safety
and Health Center of the Office of the Assistant Secretary for Administration and Management
(OASAM). The mission of the Safety and Health Center is to provide leadership, policy guidance,



        1
        U.S. Department of Labor. Department of Labor Drug-Free Workplace Plan. Revised
June, 2000. Appendix A - Revised - 06/05/2000.

                                                     1
technical advice, and overall administration and management of the Department's internal safety, health,
and workers' compensation programs. A Drug Program Coordinator (DPC) is assigned to carry out
the purposes of this Plan and has the responsibility for implementing, directing, administering, and
managing the drug program with the DOL.

Random Drug Testing Program Implementation

In implementing the program of random testing, the Plan requires that the Drug Program Coordinator:

        (1)     Ensure that the means of random selection remains confidential; and
        (2)     Evaluate periodically whether the numbers of employees tested and the frequency with
                which those tests will be administered satisfy the DOL's duty to achieve the objective of
                a drug-free workplace. The frequency with which random tests will be administered is
                10 percent per annum.

An individual selected for random testing and the individual's first-line supervisor must be notified the
same day the test is scheduled, preferably within two hours of the scheduled testing. The supervisor
must explain to the employee that the employee is under no suspicion of taking drugs and that the
employee was selected randomly. Agency representatives can take as long as one month to complete
the drug tests for individuals on the list they receive from OASAM’s Safety and Health Center.

An employee selected for random drug testing may obtain a deferral of testing if two higher-level
management officials concur that a compelling need necessitates a deferral on such grounds as the
employee is:

        (1)     In a leave status (sick, annual, administrative or leave without pay);
        (2)     In official travel status away from the test site or is about to embark on official travel
                scheduled prior to testing notification; or
        (3)     Required to attend a previously-scheduled meeting or keep a previously-scheduled
                appointment.

An employee whose random drug test is deferred will be subject to an unannounced test within the
following 60 days.

The Department has issued a handbook setting forth standard operating procedures for managers
implementing all DOL drug testing consistent with the DOL Drug-Free Workplace Plan2.


        2
         U.S. Department of Labor. Department of Labor Drug Testing Handbook. Revised
Edition, November 1999.

                                                     2
                              PURPOSE AND METHODOLOGY


 PURPOSE

The purpose of the evaluation was to determine whether the Department’s random drug testing
program was implemented as stipulated in DOL’s Drug-Free Workplace Plan (Plan) in Fiscal Years
(FY) 1996 through 2000. Specifically, we answered the following questions:

       (1)     Did the Department’s random drug testing selection plan ensure that each employee
               who was subject to random drug testing had an equal probability of selection each
               year?

       (2)     Did responsible DOL officials apply the Plan’s criteria for deferral of testing in the cases
               of employees who were not tested when they were randomly selected for drug testing?

       (3)     Were those employees who were not tested for drugs when first randomly selected
               tested within the following 60 days?


 METHODOLOGY

Our evaluation focused on the Mine Safety and Health Administration (MSHA), the Occupational
Safety and Health Administration (OSHA), and the Office of Inspector General (OIG) because in FYs
1996 through September 11, 2000, MSHA, OSHA, and OIG accounted for over 95 percent of all
scheduled random tests at DOL. MSHA contributed about 52 percent, OSHA about 39 percent, and
OIG about 4.6 percent of all scheduled random tests at DOL. The remaining random tests are
distributed among several other DOL agencies.

To answer the evaluation questions, we:

       (1)     Reviewed the DOL’s random drug testing sampling plan for FYs 1996-2000.
       (2)     Examined OASAM data on random drug test completions for the same period.
       (3)     Conducted interviews with the DOL Drug Program Coordinator and Agency Drug
               Program Liaisons.

We held an entrance conference with OASAM officials on September 11, 2000. Field work was
conducted at OASAM’s offices at the Frances Perkins Building in Washington, D.C. An exit
conference was held with OASAM officials on Ocober 3, 2000 to discuss the results of our review.


                                                    3
We conducted our review in accordance with the Quality Standards for Inspections published by the
President’s Council on Integrity and Efficiency.




                                                4
                           FINDINGS AND RECOMMENDATIONS


 FINDING - DOL’s RANDOM DRUG TESTING PROGRAM
 CAN BE IMPROVED

We found that DOL’s random drug testing program can be improved in two areas:
(1) completion rates of scheduled drug tests can be increased and (2) deferred randomly scheduled
drug tests should be completed within 60 days.

We also found that the Department’s random drug testing selection plan ensures that each employee
who was subject to random testing had an equal probability of selection in FYs 1996 - 2000.

Regarding the areas that need improvement, first, in FYs 1996-2000, about 61 percent of 1,813
scheduled random drug tests were completed DOL-wide. As of September 11, 2000 (towards the
end of FY 2000) the completion rate was 41 percent. As the following graph shows, random testing
completion rates DOL-wide and for MSHA, OIG, and OSHA in FYs 1996 through 2000 are similar.
They fall well short of the expected 100 percent and are declining.


Declining Random Drug Testing Completion Rates
Fiscal Years 1996 - 20003


            100
            90
            80
            70
            60
            50
            40
            30
                  FY 96          FY 97          FY 98        FY 99           FY 00

                        Total DOL        MSHA           OSHA           OIG




        3
        Please refer to Exhibit 2 for a table displaying the completion rates of random drug tests
scheduled in FYs 1996 through 2000.

                                                    5
Second, we found that section F. of the random testing provision of the Plan has been improperly
implemented. Followup tests of deferred tests were not completed and, as a consequence, many
employees whose tests were deferred were never tested. Although this is a long-standing practice, it
violates Department policy, which requires that an employee whose random drug test is deferred be
subjected to an unannounced test within the following 60 days.

DOL’s Drug Program Coordinator and MSHA, OIG, and OSHA Drug Program Liaisons agreed that
excusing employees from testing may be the main contributor to the low completion rates just
mentioned, since deferral and subsequent re-scheduling of drug tests would likely result in 100 percent
or near-100 percent completion rates. They also said that they were following long-standing
Department practice as set forth in the Drug Testing Handbook, which does not include procedures for
testing after deferral.


 AGENCY COMMENTS

During the exit conference, Safety and Health Center officials told us that they are in agreement with our
recommendations. They also told us that they have taken the following corrective actions:

        1.      They have updated the Department of Labor Drug Testing Handbook to include
                procedures for employee drug testing within 60 days after deferral, as stipulated by the
                Department of Labor Drug-Free Workplace Plan.

        2.      They have distributed the updated Department of Labor Drug Testing Handbook
                and have notified Agency Administrative Officers and DOL Drug Program
                Coordinators that testing of deferred employees will be conducted within 60 days of
                deferral, as stipulated in DOL’s Drug-Free Workplace Plan.

        3.      They have also held two meetings–one with Agency Administrative Officers and a
                second one with DOL Drug Program Coordinators–to inform them of the standard
                operating procedures for implementing the deferral and subsequent testing of employees
                under the Department’s random drug testing program.



 OIG’s RESPONSE

We consider these recommendations to be resolved and closed, because OASAM has instituted the
corrective actions detailed above.


                                                    6
Recommendations

We recommend that:

      1.   DOL’s Safety and Health Center update the Department of Labor Drug Testing
           Handbook to include procedures for employee drug testing within 60 days after
           deferral.

      2.   DOL’s Safety and Health Center actively notify agencies of the Plan’s rules regarding
           random testing and enforce the 60-day deferral provision stipulated in DOL’s Drug-
           Free Workplace Plan.

      3.   Agency Drug Programs train drug program liaisons and coordinators in the standard
           operating procedures for implementing the Department’s random drug testing program.




                                                7
EXHIBIT 1 - RANDOM TESTING SAMPLING
            PLAN




                 8
EXHIBIT 2 - RANDOM DRUG TESTING
            COMPLETION RATES FOR
            FYs 1996 - 2000




                  9
Random Drug Testing Completion Rates
for Fiscal Years 1996 - 2000

                                        MSHA+OIG
 Fiscal Year               Totals*       +OSHA            MSHA      OSHA      OIG
 10/01/95 - 09/30/96           69.52           70.43        79.19     54.14    100.00

 10/01/96 - 09/30/97           56.40           56.82        59.46     55.83     33.33

 10/01/97 - 09/30/98           74.01           73.96        76.21     69.30     75.00

 10/01/98 - 09/30/99           59.34           59.53        66.67     54.40     42.86

 10/01/99 - 09/11/00           41.38           41.67        33.33     50.42     40.00

*Totals consist of all DOL scheduled random drug tests.




                                                 10
